                                                              O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                         90 - 7 T H S TREET, S UITE 3-650
                                                                          S AN F RANCISCO , CA 94103

June 20, 2012

Report Number: A-09-12-01000

Ms. Mila Kaahanui
Executive Director, Office of Community Services
Department of Labor and Industrial Relations
830 Punchbowl Street, Room 420
Honolulu, HI 96813

Dear Ms. Kaahanui:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Hawaii Claimed Unallowable Community Services Block
Grant Costs for Administrative Expenditures Under the Recovery Act. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8309 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-12-01000 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Mila Kaahanui


Direct Reply to HHS Action Official:

Mr. Oscar Tanner
Director
Office of Financial Services
Sixth Floor East Wing, Aerospace Building
370 L’Enfant Promenade, SW
Washington, DC 20447
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL



HAWAII CLAIMED UNALLOWABLE
    COMMUNITY SERVICES
   BLOCK GRANT COSTS FOR
ADMINISTRATIVE EXPENDITURES
  UNDER THE RECOVERY ACT




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-09-12-01000
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided $1 billion to the Community Services Block Grant (CSBG) program for fiscal years
(FY) 2009 and 2010. As with annually appropriated CSBG funds, Recovery Act funds were to
be used to reduce poverty, revitalize low-income communities, and help low-income Americans.
In addition, CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010.

Within the U.S. Department of Health and Human Services, the Administration for Children
and Families (ACF), Office of Community Services, administers the CSBG program. The
CSBG program funds a State-administered network of more than 1,100 local community action
agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty.

In the State of Hawaii, the Department of Labor and Industrial Relations, Office of Community
Services (State agency), was responsible for approving CAAs’ applications for CSBG Recovery
Act funds and monitoring CAAs’ compliance with Federal requirements. Under the Recovery
Act, the State agency was awarded $5 million in CSBG funds for FYs 2009 and 2010. The State
agency distributed the entirety of the CSBG Recovery Act award to four CAAs.

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. States receiving
CSBG Recovery Act funds are subject to 45 CFR part 96. ACF guidance stated that the
Recovery Act (unlike the regular CSBG program) did not allow for State expenditures on
administrative costs and statewide discretionary activities.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements
when distributing CSBG Recovery Act funds to the CAAs and returning unspent funds to the
Federal Government.

SUMMARY OF FINDING

The State agency complied with Federal requirements when distributing the entirety of the
$5 million in CSBG Recovery Act funds to four CAAs. However, the State agency returned to
the Federal Government only $972,783 of the $1,007,644 of funds not spent by the CAAs. The
State agency claimed the remaining $34,861 as administrative expenditures. These costs were
unallowable under the CSBG Recovery Act award. The State agency claimed unallowable costs
because it did not have adequate policies and procedures to ensure that the CSBG Recovery Act
costs claimed were allowable in accordance with Federal requirements.




                                                i
RECOMMENDATION

We recommend that the State agency refund to the Federal Government $34,861 for unallowable
costs.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our finding and
provided information on corrective actions taken. The State agency did not explicitly address
our recommendation but agreed that $34,861 was unallowable. The State agency’s comments
are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              American Recovery and Reinvestment Act ...................................................1
              Community Services Block Grant Program. .................................................1
              Hawaii Department of Labor and Industrial Relations,
               Office of Community Services. ..................................................................1
              Federal Requirements for Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDING AND RECOMMENDATION ...........................................................................3

          FEDERAL REQUIREMENTS ..................................................................................3
               American Recovery and Reinvestment Act ...................................................3
               Administration for Children and Families Guidance .....................................3

          UNALLOWABLE COSTS CLAIMED FOR
           ADMINISTRATIVE EXPENDITURES................................................................3

          RECOMMENDATION .............................................................................................4

          STATE AGENCY COMMENTS ..............................................................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Services Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

Community Services Block Grant Program

The CSBG program was reauthorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998, P. L. No. 105-285 (CSBG Act), to provide
funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health and Human Services (HHS), the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,100 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty. Recovery Act grant funds were intended to
cover additional costs for the same types of services.

Hawaii Department of Labor and Industrial Relations, Office of Community Services

In the State of Hawaii, the Department of Labor and Industrial Relations, Office of Community
Services (State agency), was responsible for approving CAAs’ applications for CSBG Recovery
Act funds and monitoring CAAs’ compliance with Federal requirements. Under the Recovery
Act, the State agency was awarded $5 million in CSBG funds for FYs 2009 and 2010. The State
agency distributed the entirety of the CSBG Recovery Act award (the award) to four CAAs. 1

Federal Requirements for Grantees

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. States receiving
CSBG Recovery Act funds are subject to 45 CFR part 96. ACF guidance stated that the
Recovery Act (unlike the regular CSBG program) did not allow for State expenditures on
administrative costs and statewide discretionary activities.

1
 In other audits, we reviewed award funds totaling $4,094,877 distributed to two CAAs: Honolulu Community
Action Program, Inc. (A-09-11-01007) and Hawaii County Economic Opportunity Council (A-09-11-01014).


                                                      1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements
when distributing CSBG Recovery Act funds to the CAAs and returning unspent funds to the
Federal Government.

Scope

We reviewed the State agency’s management of the $5 million in CSBG Recovery Act funds for
the period October 1, 2008, through September 30, 2010. We did not review the overall internal
control structure of the State agency. We limited our review of internal controls to those that
were significant to the objective of our audit.

We conducted our audit from June to December 2011 and performed fieldwork at the State
agency’s office in Honolulu, Hawaii.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed the State agency’s State plan for the award;

    •   reviewed the State agency’s methodology for distributing award funds;

    •   reviewed the State agency’s financial management policies and procedures;

    •   interviewed State agency officials to gain an understanding of the costs charged under
        the award;

    •   reviewed the State agency’s Final Financial Status Report (SF-269 Short form) related to
        the award;

    •   reconciled award costs claimed with the State agency’s drawdown reports;

    •   interviewed State agency officials and reviewed supporting documentation to determine
        whether the State agency returned unspent award funds to the Federal Government;

    •   reviewed supporting documentation related to the administrative costs claimed under the
        award; and

    •   discussed our finding with State agency officials.


                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

The State agency complied with Federal requirements when distributing the entirety of the
$5 million in CSBG Recovery Act funds to four CAAs. However, the State agency returned to
the Federal Government only $972,783 of the $1,007,644 of funds not spent by the CAAs. The
State agency claimed the remaining $34,861 as administrative expenditures. These costs were
unallowable under the CSBG Recovery Act award. The State agency claimed unallowable costs
because it did not have adequate policies and procedures to ensure that the CSBG Recovery Act
costs claimed were allowable in accordance with Federal requirements.

FEDERAL REQUIREMENTS

American Recovery and Reinvestment Act

The Recovery Act stated that 1 percent of the additional CSBG funds provided to States for
carrying out activities under sections 674 through 679 of the CSBG Act were to be used for
benefits enrollment coordination activities related to the identification and enrollment of eligible
individuals and families in Federal, State, and local benefit programs. The remaining funds
available to States were to be distributed to eligible entities, such as CAAs.

Administration for Children and Families Guidance

ACF’s CSBG Information Memorandum, Transmittal No. 109, stated that the Recovery Act
(unlike the regular CSBG program) did not allow for State expenditures on administrative costs
and statewide discretionary activities.

UNALLOWABLE COSTS CLAIMED FOR ADMINISTRATIVE EXPENDITURES

The State agency awarded $5 million in CSBG Recovery Act funds to the CAAs. The award
included up to $50,000 (or 1 percent of the total) for benefits enrollment coordination activities
related to the identification and enrollment of eligible individuals and families in Federal, State,
and local benefit programs.

Of the award, the State agency claimed $3,992,356 for the CAAs’ program expenditures, which
included $45,402 for benefits enrollment coordination activities. Of the $1,007,644 not
expended by the CAAs, the State agency claimed $34,861 of unallowable costs for its
administrative expenditures and returned only $972,783 to the Federal Government.
Specifically, the State agency claimed:




                                                  3
    •   $23,068 of salaries and wages related to its administrative staff;

    •   $8,526 of fringe benefits applicable to those salaries and wages;

    •   $2,688 of travel costs (i.e., per diem, airfare, and car rental costs) incurred by its
        administrative staff; and

    •   $579 of office supplies.

State agency officials agreed that these costs should not have been claimed under the award.
According to State agency officials, the staff believed that, as with regular CSBG funding,
administrative costs could be claimed under the Recovery Act.

The State agency did not have adequate policies and procedures to ensure that the costs claimed
for its administrative expenditures were allowable in accordance with Federal requirements.
State agency officials indicated that the staff did not have an adequate understanding of the
Recovery Act requirements for the CSBG program.

RECOMMENDATION

We recommend that the State agency refund to the Federal Government $34,861 for unallowable
costs.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our finding and
provided information on corrective actions taken. The State agency did not explicitly address
our recommendation but agreed that $34,861 was unallowable. The State agency’s comments
are included in their entirety as the Appendix.




                                                  4
APPENDIX
                                                                                                                          Page 1 of3


                             APPENDIX: STATE AGENCY COMMENTS 





N.... ABERCROM"'"
    IiClV£R""R




                                                                                                        " ..........•......... Ul
                                                                                                      lJIECUfMl """CTOR
                                                STATE OF HAWAII 

                                        OFFICE OF COMMUNITY SE RVICES 

                                    DEPARTMENT OF LABOR AND INDUST RIA L RELATIONS 

                                          830 PUNCHBOWL STREET. ROOM 420 

                                               HONOLULU, HAWAII 96B I J 



                                                     May 29, 2012



        Ms. Lori A. Ahlst.rand 

       Rcgional lnspector Gencral for Audit Services 

       Office of Audit Services, Region IX 

       Onice of Inspector General 

       U. S. Department of Health and l'luman SCl'viccs 

       90 7th Street, Suite 3-650 

       San Francisco, Califomin 94 103 


                    RE: 	   State of Hawaii Department of Labor and Industrial Relations, Office of
                            Community Services (HOCS) Response to Draft Report # A-09-12-0 1000

       Dear    M~.    Ahbtrand:

       Hoes i~ pJ~scd to submit a r~ponsc to DIG draft report # A-09-12-0tOOO with the following
       quote from the repo rt to provide context:

       "AdmillisfrtlliOlljor Chill/rell (l/ul Fflmilies Guit/allce
       ACF's CSBG In/ormation Memorandum, Transmiflal No. 109, .flated Ihallhe RecoveryAcl
       (unlike Ihe regular CSBG program) did nol allow jor State expendilUt es 0/1 administrative costs
       and statewide discretionary activities.

       UNALLOWABLE COSTS CLA IMtJ) FOR ADMINISTRA TIVE EXPENDITURES
       The State agency aWfll"ded $5 million in C,)BG RecovelY ACI fill/d.1 /{J Ihe CAAs. The award
       included up to $50,000 (or J percent o/Ihe lot(1) fbr benefit.l· enmllment coordination activities
       refaled to the identification and enrollment ofeligible individllals andfamilies in Federal, Stale,
       and local bene/it pI"ogI"Gms.

       O/the awaN!, the State agency claimed SJ,992,356jorlhe CAAs' program expenditures, which
       included $45,402 jor henejiL~ enrollment (:oordilllltiun aclivitics. Ojthe $/,007,644 !lot expended
       by Ihe CAA.I·, the Stlltf! agency claimed $J4,861 0/ una/foIYlIble "osls/or ils adminislrative
       expenditures and returned only $972, 783 to Ihe Federal Government. Specifically, the State
       agency claimed:
                                                                                                       Page 2 of3




 Ms. Lori A. Ahlstrand
 May 29, 2012
 Page 2


    $23,068 ofsalaries and wages relaled 10 il.Y administrative staff;
    $8,526 offringe benefits applicable (0 those salaries and wages;
    $2,688 oftravel costs (i.e., per diem, airfare, and car rental ci)sl~"J incurred by its
    administrative staff; and
    $579 ofoffice supplies.

State agency officials agreed Iha/the.l·e CfJ.ft.\· .\·hould nol have been claimed IInder the award.
According /Q Slate llgellcy officials, the sla./fbelieved that, as with regular CSBG funding,
administralive costs could be claimell under the Recovery Act.

 The Slale agency did not have adequate poliCies (md procedUres 10 ensure that the costs claimed
for ils administrative expendilure~' were allowable ill accordance wilh Federal requirements.

Slale agency officials indica/ed Ihm the Slaff did nOI have an fldel/uale under$landing ofthe
Recovery Act requirements for the CSBG p/"f)gl"flm.

RECOMMENDATION
We recommend thatlhe Slate agency refund to the Federal Government $34,861 for unallowable
costs. ..

Sta te R e.~ ponse; 

Generally, the State concurs with this finding. The costs charged to eSI3G-ARRA were normal 

and reasonable administrative costs usually allocated among all programs. However, the eSBG­ 

ARRA award did not allow thl;: five percent administmtive allotment usually contained in the 

regular C$BG award and consequently, this anomaly was not eOIlSidcrcd when the Stat~ 

allocated costs associated with program operations. Upon review of (he gnidanee it was found 

and agreed upon that these costs were unallowable. 


Backgroond ; 

During the time orthl;: CSHU-ARRA grant, HOCS experienced high turnover, with two 

Executive Directors and thrce adminblralol"S ofthc CSBG. During this lime, the Senior 

Accountant policies included a yearly payroll reconciliation schedule for HOeS. Payroll and 

other administrative or non-direct costs were allocated among programs, with final n:conciliation 

backed by documentation OCCUlTing atlhe end of the respective program cycle. 


For the purposes of this audit it appears the charges were applied to eSRG-ARRA, a~ was the
normal practice, however the reconciliatiQn based Qn [lctual expenses and nllowability did not
occur at the end of the grant cycle. Although this is the conclusion of the CUrTCnt staff, thi~
statement cannot be verified for cCl1ain as both the Exccutive Director and the Senior Accountant
during this grant period arc no IQngcr employed at HOCS.
                                                                                                         Page 3 of3




Ms. Lori A. Ahlstrand 

May29, 20 12 

Page 3 



Corrective Actio ns:

 I. 	 The 0[0 draft report state.~ thllt HOCS did not have adequate policies and procedures to 

      ensure that the costs claimed for its administrative expenditures were allowable under the 

      Recovery Act. 


    A. 	 Since the appointment of a new Executive Director in December 201 0 and the hi ring of
           a new Senior Accountant in April 201 I, HOCS has updatcd its cost allocation
           methodology to confonn more elo~ely to the direct costing provided by our electronic
           database, thc "Cost Allm;ation System (CAS)." This system allows better trucking of
           activities of specific staff, including administrative duties and direct program duties, in
           an electronic formal.

    B. 	   Under the direction of the current Executive Director, HOCS has moved to a quarterly
           reconciliation system. The eUITCnt Senior Accountant now reconciles each grant
           account on a quarterly basis, ensuring better tracking of expenditure rates and outcome
           delivery, as well as morc accurllle expenditure prediction during the grant year.

    C. 	   HOCS is updating all policies and procedures to comport with updated Federal
           regulations such as the Federal Fund Accountability and Transparency Act and Celltral
           Contractor Regi~try.

2. 	 The O[G draft report stlllcs that HOeS staff did not have an adequate understandi ng of the
     Recovery Act requiremen ts for the CSl3G program.

   A. 	 To account for the complexity of the program, HOCS has assigned its most senior
        progr.un manager to the CSl3G. This program manager has general experience in a
        number of anti-poverty programs, as well as contracting and oversight experience. This
        ruanaj;er has attended two CSBO conferences since the ARRA period to ensure
        knowledgeable, informed oversight.

We believe thi~ statement to be adequate to address the OIO's concerns, and are rcady to provide
additional information if necessary. HOeS believes our overall administration of the program is
sound, as the heightencd scrutiny of ARRA has resulted in only a single finding for the State. If
you have any concerns or require additional information, please euntaet me at (808) 586-8675 or
at Mila.S.Kaahnnui@hawaii.gov.

                                               Sincerely,



                                               MILA KAAHANU I, MSW
                                               Executive Director
